TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Additional Steps Are Needed to Ensure the
                        Volunteer Income Tax Assistance
                           Grant Program Reaches More
                             Underserved Taxpayers



                                             April 30, 2012

                                Reference Number: 2012-40-049




   This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.




Phone Number | 202-622-6500
E-mail Address | TIGTACommunications@tigta.treas.gov
Website        | http://www.tigta.gov
                                                HIGHLIGHTS


ADDITIONAL STEPS ARE NEEDED TO                      179 grantees), and the number of tax returns
ENSURE THE VOLUNTEER INCOME TAX                     prepared by grantees grew 38 percent (from
ASSISTANCE GRANT PROGRAM                            786,058 to 1,080,875). However, much of this
REACHES MORE UNDERSERVED                            growth appears to be a transition to the VITA
                                                    Grant Program rather than overall growth in the
TAXPAYERS
                                                    Volunteer Program.
                                                    Analysis of the 51 grantees that received VITA
Highlights                                          Grant Program funding for Fiscal Years 2009
                                                    through 2011 showed that 21 (41 percent) did
Final Report issued on April 30, 2012               not reach 90 percent of their tax return
                                                    preparation goals but received increased
Highlights of Reference Number: 2012-40-049         funding in the subsequent year. In addition,
to the Internal Revenue Service Commissioner        taxpayers with incomes over the thresholds for
for the Wage and Investment Division.               free tax return preparation had tax returns
                                                    prepared by the VITA Grant Program. Nine
IMPACT ON TAXPAYERS                                 percent of the tax returns prepared by the VITA
The Volunteer Income Tax Assistance (VITA)          Grant Program in Calendar Year 2009 and
Grant Program has become a significant              6 percent in Calendar Years 2010 and 2011
component of the IRS’s Volunteer Program.           were for taxpayers with incomes over the
One-third of the tax returns prepared by the        income threshold.
Volunteer Program are prepared by VITA Grant        The IRS collects data to select grantees and
Program grantees. The IRS should begin to use       allocate awards. However, it is still not using the
historical data to assess its progress in meeting   data to determine where to market the VITA
the VITA Grant Program objective of extending       Grant Program and what underserved
coverage to the underserved. These data will        geographic areas need more coverage.
allow the IRS to grow the Program beyond the
current partners by targeting its recruitment       WHAT TIGTA RECOMMENDED
efforts to new partners serving the underserved
                                                    TIGTA recommended that the IRS, after
populations.
                                                    analyzing current data and establishing a
WHY TIGTA DID THE AUDIT                             baseline, develop measures and goals to ensure
                                                    the VITA Grant Program is meeting the
Previously, the IRS was unable to provide           legislative intent of extending services to
analysis of VITA Grant Program recipients’ prior    underserved populations and hardest-to-reach
year VITA tax return preparation statistics.        areas, both urban and nonurban. These data
Since Fiscal Year 2008, when Congress first         would assist the IRS in targeting its recruitment
appropriated funds for the VITA Grant Program,      efforts to new partners assisting the
volunteers and partners have moved from the         underserved populations and by establishing
Volunteer Program to the VITA Grant Program.        performance measures for the individual
Our overall objective was to determine whether      grantees to determine if they are meeting the
the VITA Grant Program is achieving its purpose     Program’s objectives and goals.
of extending services to underserved
populations in hard-to-reach areas, both urban      IRS management agreed to continue analysis of
and nonurban.                                       available data to ensure the VITA Grant
                                                    Program is meeting legislative intent.
WHAT TIGTA FOUND
                                                    The IRS did not address the establishment of a
The VITA Grant Program has established              baseline for the VITA Grant Program in its
appropriate guidelines to ensure grant funds are    response. Without a baseline, it will continue to
distributed according to the law and regulations.   be difficult for the IRS to determine what
From Fiscal Years 2009 to 2011, the number of       underserved geographic areas need more
grantees grew 61 percent (from 111 to               coverage.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 30, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Steps Are Needed to Ensure the
                             Volunteer Income Tax Assistance Grant Program Reaches More
                             Underserved Taxpayers (Audit # 201140009)

 This report presents the results of our review to determine whether the Volunteer Income Tax
 Assistance Grant Program is achieving its purpose of extending services to underserved
 populations in hard-to-reach areas, both urban and nonurban. This audit was part of our Fiscal
 Year 2011 Annual Audit Plan and addresses the major management challenge of Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                    Additional Steps Are Needed to Ensure the Volunteer Income Tax
                    Assistance Grant Program Reaches More Underserved Taxpayers




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Volunteer Income Tax Assistance Grant Program Has
          Become a Significant Component of the Volunteer Program ...................... Page 4
          Measures and Goals Are Needed to Ensure Legislative
          Intent Is Being Met ....................................................................................... Page 7
                    Recommendation 1:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Management’s Response to the Draft Report ...................... Page 19
             Additional Steps Are Needed to Ensure the Volunteer Income Tax
             Assistance Grant Program Reaches More Underserved Taxpayers




                              Abbreviations

e-file(d); e-filing    Electronically file(d); electronic filing
IRS                    Internal Revenue Service
SPEC                   Stakeholder Partnerships, Education, and Communication
VITA                   Volunteer Income Tax Assistance
                    Additional Steps Are Needed to Ensure the Volunteer Income Tax
                    Assistance Grant Program Reaches More Underserved Taxpayers




                                                 Background

The Internal Revenue Service’s (IRS) first goal is to improve service to taxpayers to make
voluntary compliance easier. To help achieve this goal, the IRS Volunteer Income Tax
Assistance (VITA) Program was implemented, originating in 1969 due to enactment of the Tax
                                         Reform Act of 19691 and an increased emphasis on
 Who Can Apply For the VITA Grant        taxpayer education programs.
    Program?
                                                  The IRS has placed continual emphasis on expanding
    To be eligible for funding under the
    VITA Grant Program, applicants must           the VITA Program through increased recruitment of
    meet the following requirements:              social service, nonprofit, corporate, financial,
       Qualify as a nonprofit organization       educational, and government organizations;
        or government entity.                     involvement of the military on a national level; and
       Demonstrate tax compliance with           expansion of assistance provided to the
        Federal tax obligations.                  limited-English-proficient community. During the
       Provide matching funds.                   2011 Filing Season,2 almost 3.2 million tax returns
       Not be debarred or suspended.             were prepared by volunteers in the IRS Volunteer
       Have an unqualified opinion or            Program.3
        qualified opinion without a
                                                  In December 2007, Congress appropriated funds to the
        significant deficiency when required
        by the Office of Management and           IRS to establish and administer a one-year matching
        Budget to have a financial                grant program in consultation with the Taxpayer
        statement audit.                          Advocate Service.
        File all required reports timely if a
         previous VITA Grant or Tax               . . . The program shall provide direct funds to enable
         Counseling for the Elderly Grant         VITA programs to extend services to underserved
         Program recipient.                       populations and hardest-to-reach areas, both urban
    Matching funds consist of cash,               and non-urban, as well as to increase the capacity to
    computer hardware and software, and           file returns electronically, heighten quality control,
    third-party, in-kind contributions.           enhance training of volunteers, and significantly
    Funding from other Federal grants
    cannot be counted as matching funds.
                                                  improve the accuracy rate of returns prepared by
                                                  VITA sites. . . .
Congress has appropriated funds for this Program annually since Fiscal Year 2008.



1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  The Volunteer Program is comprised of the VITA Program, the Tax Counseling for the Elderly Program, and the
VITA Grant Program.
                                                                                                            Page 1
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



The IRS defines “underserved populations” as low-income taxpayers who may also be elderly,
limited-English proficient, disabled, Native American, or who live in rural or urban areas, or
other hard-to-reach areas. The grants are also to be used to increase the capacity to file returns
electronically, heighten quality control, enhance training of volunteers, and significantly improve
the accuracy rate of returns prepared by VITA Program sites. The establishment of the VITA
Grant Program enables the IRS to offer funding to assist organizations in sustaining its Volunteer
Program.
The IRS awarded VITA grants for the first time in November 2008 to organizations that offered
free tax preparation services during the 2009 Filing Season. Each year, the IRS has increased the
number of award recipients and has increased grants from $7.4 to $12 million.
    $7.4 million to 111 organizations for the 2009 Filing Season.
    $7.4 million to 147 organizations for the 2010 Filing Season.
    $12 million to 179 organizations for the 2011 Filing Season.
    $12 million to 213 organizations for the 2012 Filing Season.
Figure 1 shows a breakdown of tax returns prepared by the VITA Grant Program for Fiscal
Years 2009 through 2011.
                    Figure 1: VITA Grant Program Tax Returns Filed
                        During Fiscal Years 2009 Through 2011

                                   Fiscal Year 2009     Fiscal Year 2010   Fiscal Year 2011

           Paper                         60,297               67,019            65,183
           Electronically Filed
                                        725,761              821,749         1,015,692
           (e-filed)
           Total Grant Returns          786,058              888,768         1,080,875
          Source: Grant Program Office production reports.

The organizations are currently located in 50 States and the District of Columbia.
The IRS’s Stakeholder Partnerships, Education, and Communication (SPEC) function is
responsible for providing oversight for the Volunteer Program, which includes determining
                                  policies and procedures, developing products and training
                                  material, and monitoring and managing Volunteer Program
                                  activity. The SPEC function’s concept of operations includes
                                  looking for opportunities to assist third parties to help
                                  taxpayers understand and meet their tax obligations by
                                  promoting collaboration among tax practitioners, commercial
preparers, and community-based partners to support the Volunteer Program.

                                                                                              Page 2
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



This review was performed at the IRS Customer Assistance, Relationships, and Education
function in the Wage and Investment Division Headquarters in Atlanta, Georgia, during the
period August 2011 through January 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                Additional Steps Are Needed to Ensure the Volunteer Income Tax
                Assistance Grant Program Reaches More Underserved Taxpayers




                                Results of Review

The Volunteer Income Tax Assistance Grant Program Has Become a
Significant Component of the Volunteer Program
Since Fiscal Year 2008, when Congress first appropriated funds for the VITA Grant Program,
the VITA Grant Program has become a significant component of the IRS’s Volunteer Program.
One-third of the tax returns prepared by the Volunteer Program are prepared by VITA Grant
Program grantees. From Fiscal Years 2009 to 2011, the number of grantees has grown
61 percent (from 111 to 179 grantees), and the number of tax returns prepared by grantees has
grown 38 percent (from 786,058 to 1,080,875).
The Volunteer Program as a whole has not grown as significantly as the VITA Grant Program
has grown. Instead, volunteers and partners have moved from the Volunteer Program to the
VITA Grant Program—shifting from partners that do not receive grants to grantees. The IRS
believes the increase from $8 million to $12 million in Fiscal Year 2010 allowed it to share more
widely in the cost of service delivery during a period of declining partner resources.
Figure 2 gives a comparison of the number of grantees, grantee sites, volunteers, and tax returns
prepared for Fiscal Years 2009 through 2011 for the VITA Grant Program and the Volunteer
Program as a whole.
                Figure 2: Comparison of VITA Grant Program Elements
                          for Fiscal Years 2009 Through 2011

                                                                                Percentage
                                                                              Increase From
                                  Fiscal Year    Fiscal Year    Fiscal Year    Fiscal Years
              Element                2009           2010           2011        2009 to 2011

     VITA Grant Program
     Grantees                         111            147            179            61%
     Sites                           2,727          3,232          3,651           34%
     Tax Returns E-Filed            725,761        821,749       1,015,692         40%
     Tax Returns Prepared           786,058        888,768       1,080,875         38%




                                                                                           Page 4
                   Additional Steps Are Needed to Ensure the Volunteer Income Tax
                   Assistance Grant Program Reaches More Underserved Taxpayers




                                                                                         Percentage
                                                                                       Increase From
                                        Fiscal Year     Fiscal Year    Fiscal Year      Fiscal Years
                  Element                  2009            2010           2011          2009 to 2011

        Total Volunteer Program
        Volunteers                         82,653         87,602          88,527             7%
        Sites                              12,160         12,326          12,486             3%
        Tax Returns E-Filed              2,773,336       2,829,415      2,978,081            7%
        Tax Returns Prepared             3,047,622       3,085,512      3,188,524            5%
       Source: Grant Program Office reports and SPEC function Fiscal Years 2011 and 2012 Program Guides.

The VITA Grant Program is meeting several of the legislative objectives, such as the number of
tax returns prepared and tax returns e-filed. For the Volunteer Program, the IRS has increased
the tax returns e-filed, heightened quality control, and enhanced training of the volunteers. The
SPEC function continues to emphasize the importance of the accuracy of tax returns prepared at
all Volunteer Program sites, and its quality results show improvement has been made.
In each of Fiscal Years 2009 and 2010, the Grant Program Office used $560,000 to cover
administrative labor costs. However, the IRS now distributes almost the entire appropriation to
grantees. For Fiscal Year 2012, the IRS awarded approximately $12 million4 to grant recipients.
Additionally, to control costs and reduce burden, the IRS is allowing qualified grantees in good
standing to apply for grants using a streamlined application for the subsequent two years. While
an application is required each year, the application is not as detailed and requires less time for
the grantees and the IRS; therefore, saving resources for both grantees and the IRS.

The VITA Grant Program has established appropriate guidelines to ensure grant
funds are distributed according to the law and regulations
In Fiscal Year 2008, the IRS established the Grant Program Office in the SPEC function, which
oversees the Tax Counseling for the Elderly and VITA Grant Programs. The Grant Program
Office has focused on establishing a process to solicit grantees, select grantees, and ensure that
grant money is used according to all laws and regulations.
The IRS timely solicits grantees
The IRS posts the Notice of Funds Availability in the Federal Register, but also markets the
availability of the VITA Grant Program, for example, through:



4
    The IRS used $24,000 for Program budget purposes.
                                                                                                     Page 5
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



      Brochures highlighting the VITA Grant Program, its requirements, application process,
       and timeline is provided to SPEC function field employees to share with their partners
       and coalitions.
      Announcements on IRS.gov, the IRS’s public Internet site, and Grants.gov.
The IRS also alerts its stakeholders and partners through conference calls, fact sheets, and talking
points about the VITA Grant Program. Additionally, the IRS maintains a Partner Resource web
page on IRS.gov with related grant information. The web page provides links to forms,
publications, reporting requirements, and other information needed by the grantees to apply and
administer their grant funds.
The IRS appropriately screened and selected applicants
The Grant Program Office has established a four-step process for selecting VITA Grant Program
grantees. Figure 3 lists the steps to select grantees.
                                Figure 3: Steps to Select Grantees

 Step One                           Step Two                 Step Three         Step Four

 Grant Program Office               SPEC function            Grant Program      SPEC function
 Employees                          Employees                Office Employees   Executives

 Screen all applicants to           Conduct a technical      Evaluate the       Approve the
 ensure they meet eligibility       assessment of each       application        selections.
 requirements.                      applicant and award up   packages.
                                    to 200 points per
                                    applicant using the
                                    selection criteria.

 Requirements                                       Selection Criteria

  1. Was a nonprofit organization or             1. Experience with Low Income and/or Tax Return
     government entity.                             Preparation.
  2. Compliant with Federal tax obligations.     2. Sustainability and Growth Strategy.
  3. Has matching funds.                         3. Strength of Program.
  4. Not debarred or suspended.                  4. VITA Target Audience.
  5. Filed all required reports.                 5. Ability to Partner or Collaborate with Multiple
                                                    Organizations.
                                                 6. Quality Control Process.
                                                 7. Program Measures.
Source: SPEC function guidelines.




                                                                                                  Page 6
                    Additional Steps Are Needed to Ensure the Volunteer Income Tax
                    Assistance Grant Program Reaches More Underserved Taxpayers



A review of a judgmental sample of 11 of 51 grantees receiving grants for Fiscal Years 2009
through 2011 showed all procedures were followed and all grantees met Program selection
criteria.5 For example, all grantees tested:
          Submitted all required documents and all case files were complete.
          Were qualified organizations.
          Had matching funds.
          Were compliant with tax laws.
Not all grantees met their tax return preparation goals
An analysis of 51 grantees that received VITA Grant Program funding for Fiscal Years 2009
through 2011 showed that of the 51 grantees, 21 (41 percent) did not reach 90 percent of their tax
preparation goals but received increased funding in the subsequent year. Ten grantees revised
their filing goals more than once. There are valid reasons to revise projections such as reducing
projections and goals based on the difference between grant award request and actual grant
award. However, 24 revisions caused grantees to overachieve their goals by more than
10 percent, one by as much as 248 percent. Conversely, 20 grantees did not achieve their tax
return production goals, even after reducing the projection. Most case files did not include
documentation that indicated why the goals were not achieved or had been surpassed.
For Fiscal Years 2009 through 2011, the Grant Program Office expected the grantees to achieve
90 percent of their tax return preparation goals. However, the grantees did not have subsequent
awards decreased if they filed less than 90 percent of their tax return preparation goals.
For Fiscal Year 2012, the Grant Program Office expects the grantees to meet 100 percent of their
goals. SPEC function officials stated that for Fiscal Year 2012, the grantees’ prior performance
was reviewed and they expect to hold grantees accountable for meeting Fiscal Year 2012
expectations. If tax return preparation goals are not reached, future grant allocations may be
affected.

Measures and Goals Are Needed to Ensure Legislative Intent Is Being
Met
Figure 4 shows the change in market share (the percentage of tax returns prepared for a specific
population compared to the whole population of returns prepared by the VITA Grant Program)
for specific underserved populations.




5
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 7
                 Additional Steps Are Needed to Ensure the Volunteer Income Tax
                 Assistance Grant Program Reaches More Underserved Taxpayers



                  Figure 4: Market Share for the VITA Grant Program
               Underserved Populations for Calendar Years 2009 and 2011

                    Calendar Year 2009                                Calendar Year 2011




                                         29%                                              30%
                               0%                                               0%


                68%                                 1%
                                                                     67%
                                                                                                      1%
                                              2%                                               2%


                Disabled, 0%                                        Disabled, 0%
                Elderly, 29%                                        Elderly, 30%
                Native American, 1%                                 Native American, 1%
                Limited English, 2%                                 Limited English, 2%
                Other VITA Grant Taxpayers, 68%                     Other VITA Grant Taxpayers, 67%


        Source: Our analysis of the Return Transaction File6 for individual tax returns identified
        as filed through the VITA Grant Program.

There were no significant changes in the market share of populations served in Calendar Years
2009 and 2011. While the number of tax returns prepared by VITA Grant Program grantees
increased 38 percent, the ratio of tax returns prepared for the underserved populations to the
whole population of tax returns prepared by the VITA Grant Program grantees showed minimal
to negative growth.
Taxpayers with incomes greater than established annual thresholds are having tax returns
prepared by the VITA Grant Program
IRS guidance states the “VITA Program uses trained volunteers to prepare basic tax returns for
low-income taxpayers in both urban and nonurban locations including persons with disabilities,
non-English speaking persons, elderly taxpayers, and Native Americans.” Every year, the IRS
establishes the threshold in which free tax help will be offered. Generally, free tax preparation is
offered to taxpayers with incomes of $49,000 or less.
       For Calendar Year 2009, income was not to exceed $42,000.

6
 The Return Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040, U.S.
Individual Income Tax, series and related forms for the current processing year and two prior years.
                                                                                                            Page 8
                   Additional Steps Are Needed to Ensure the Volunteer Income Tax
                   Assistance Grant Program Reaches More Underserved Taxpayers



          For Calendar Years 2010 and 2011, income was not to exceed $49,000.
Nine percent of the tax returns prepared by the VITA Grant Program in Calendar Year 2009
were for taxpayers with incomes greater than the income threshold. The percentage was
6 percent in both Calendar Years 2010 and 2011.
The Adjusted Gross Income7 of all tax returns exceeding income guidelines comprised
22 percent of the Adjusted Gross Income for all VITA Grant Program tax returns prepared
during Calendar Year 2011. Figure 5 compares tax returns prepared with incomes over the
guidelines to the total returns prepared by the VITA Grant Program.
             Figure 5: VITA Grant Program Tax Returns With Incomes Higher
           Than Guidelines Prepared During Calendar Years 2009 Through 2011

                                                            Tax Returns With          Percentage of Tax
                Calendar             Total Tax               Incomes Higher            Returns to Total
                  Year                Returns               Than Guidelines              Tax Returns

                   2009                 726,529                     68,560                       9%
                   2010                 842,432                     50,969                       6%
                   2011               1,001,777                     64,420                       6%
            Source: Our analysis of the Return Transaction File for individual tax returns identified as filed
            through the VITA Grant Program and SPEC function reports.

Fifty (98 percent) of 51 sampled grantees prepared 11,410 returns for taxpayers with Adjusted
Gross Income greater than $100,000 during Calendar Years 2009 through 2011. Although these
tax returns represent less than 1 percent of the 1.9 million total tax returns prepared by the
51 grantees, preparing tax returns for taxpayers with incomes substantially greater than the
established thresholds could affect thousands of low-income taxpayers.
Tax returns were also prepared for 13 taxpayers with Adjusted Gross Income exceeding
$700,000.
          2 (4 percent) of the 51 grantees prepared seven returns for taxpayers with Adjusted Gross
           Income exceeding $1 million.
          3 (6 percent) of the 51 grantees prepared six returns for taxpayers with Adjusted Gross
           Incomes between $700,001 and $1 million.
At least three of the 13 tax returns were volunteers’ personal tax returns. The Volunteer Program
does not prohibit volunteers from preparing their own or relatives’ tax returns.



7
    Adjusted Gross Income is defined as gross income minus adjustments to income.
                                                                                                                 Page 9
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



The IRS needs to establish a baseline for the VITA Grant Program so that it can
determine its progress in reaching the legislative intent
During the first three years of the VITA Grant Program, the Grant Program Office focused its
resources on establishing procedures and administering grants. With three years of data
available, the Grant Program Office should now have sufficient data to establish a baseline to
measure the VITA Grant Program. This will help ensure it is making progress in meeting the
legislative intent of the grant.
The SPEC function uses outcome measures to measure and set goals/targets for the
Volunteer Program and Key Business Indicators to track Volunteer Program performance
The VITA Grant Program is included in the Volunteer Program’s outcome measures and Key
Business Indicators. Outcome measures include Return Preparation Accuracy and Percent of
Individual Returns Filed Electronically. The Number of Tax Returns Prepared is an output
measure. Using these measures, the SPEC function establishes targets for the Volunteer
Program. Fiscal Year 2012 targets are:
      Number of Tax Returns Prepared – 3.2 million.
      Return Preparation Accuracy – 87 percent.
      Percent of Individual Returns Filed Electronically – 92 percent.
There are no outcome measures or targets to determine if the Volunteer Program is increasing its
coverage of underserved populations. Instead, the SPEC function uses Key Business Indicators.
Figure 6 shows the Key Business Indicators for Coverage Rates the SPEC function reported for
the Volunteer Program for Fiscal Years 2010 and 2011.
              Figure 6: Coverage Rates* for Fiscal Years 2010 and 2011
                             for the Volunteer Program

        Key Business                                               Fiscal Year   Fiscal Year
        Indicators                   Definition                    2010 Actual   2011 Actual
                                     Percent of low-income tax
        Overall – Low-Income
                                     returns receiving volunteer      3.7%          3.7%
        Tax Returns
                                     return preparation service.

                                     Percent of
                                     Limited-English-Proficient
        Limited-English-Proficient
                                     households receiving             1.8%          1.8%
        Tax Returns
                                     volunteer tax return
                                     preparation service.




                                                                                               Page 10
                 Additional Steps Are Needed to Ensure the Volunteer Income Tax
                 Assistance Grant Program Reaches More Underserved Taxpayers




         Key Business                                                   Fiscal Year      Fiscal Year
         Indicators                     Definition                      2010 Actual      2011 Actual
                                        Percent of persons with a
         Persons With a Disability      disability receiving
                                                                            3.1%             3.4%
         Tax Returns                    volunteer tax return
                                        preparation service.

                                        Percent of tax returns filed
                                        by seniors (age 60+)
         Seniors’ Tax Returns                                               8.8%              8%
                                        receiving volunteer tax
                                        return preparation service.

                                        Percent of persons living in
                                        rural areas receiving
         Rural Tax Returns                                                  3.2%             3.4%
                                        volunteer tax return
                                        preparation service.

        Source: SPEC function Fiscal Year 2012 Program Guide. * = Coverage is defined as the percentage
        of tax returns prepared by the Volunteer Program to the total population of individual tax returns
        filed in that category or to American Community Survey Census data.

In addition to extending coverage to underserved taxpayers, funding for the VITA Grant
Program is provided to heighten quality control, enhance training of volunteers, and significantly
improve the accuracy rate of returns prepared by VITA Grant Program sites. To measure these
objectives, the Grant Program Office relies on the Volunteer Program’s quality assurance
program. The quality assurance program utilizes statistical sampling, case reviews, and on-site
visits to ensure all processes and procedures are being followed and tax returns are being
prepared correctly.
The SPEC function does not select separate samples from VITA Grant Program sites to test for
accuracy, but because the IRS uses statistical sampling, a representative number of VITA Grant
Program sites should be included in the sample. It would require significantly more resources to
measure and assess the VITA Grant Program at the Program level. However, as we reported in
August 2011,8 quality assurance processes remain a problem for the Volunteer Program.




8
 Treasury Inspector General for Tax Administration, Ref. No. 2011-40-094, Accuracy of Tax Returns, the Quality
Assurance Processes, and Security of Taxpayer Information Remain Problems for the Volunteer Program
(Aug. 2011).
                                                                                                       Page 11
                 Additional Steps Are Needed to Ensure the Volunteer Income Tax
                 Assistance Grant Program Reaches More Underserved Taxpayers



In August 2009, we reported that the IRS would establish the baseline for the VITA Grant
Program’s performance goals during the 2009 Filing Season9
During that audit, we reported that we were unable to assess the success of the VITA Grant
Program’s first year. The IRS was unable to provide analysis of VITA Grant Program
recipients’ prior year VITA tax return preparation statistics. These data were to be used during
the award process to compare prior year tax return preparation data with the 2009 Filing Season
projections. Grant Program Office officials stated they did not have time to collect these data
and conduct the analysis.
The Grant Program Office currently collects data specific to grantees, for example, data on the
number of tax returns prepared, number to tax returns filed on paper and e-filed, number of
volunteers, and number of tax return preparation sites. These data are being used to select
grantees and allocate awards, but the data are still not being used to determine where to market
the VITA Grant Program and what underserved geographic areas need more coverage.
There are challenges in collecting sufficient data to determine coverage to the underserved
The SPEC function has to rely on data from several sources. It collects data directly from
grantees, the tax software used to prepare the tax returns, various IRS computer systems, and the
U.S. Census. These data are not always comparable.
For example, the grantees report the number of underserved taxpayers they assist. These
numbers may not match the IRS’s tax records because tax returns do not include information on
race, disabilities,10 or limited-English proficiency. Additionally, our analysis showed, and the
IRS has determined, that grantees’ final numbers on their accomplishments do not always match
the IRS’s. The number of tax return preparation sites reported by the grantees can differ because
the sites may not be linked to the correct partner and the identification numbers used by sites
may be inaccurate.
In addition, although most of the VITA Grant Program grantees have participated in prior filing
seasons, the number and location of tax return preparation sites are dependent on the willingness
of individuals to volunteer. Changes in the number of volunteers, sites, and locations make it
difficult to compare progress from year to year.
Finally, beginning in Fiscal Year 2012, the IRS will no longer identify and direct the engagement
of local resources and partners to address specific underserved low-income populations: persons
in rural geographies, persons with a disability, and persons who are of limited-English
proficiency. Instead, these populations will be treated as part of the overall low-income


9
  Treasury Inspector General for Tax Administration, Ref. No. 2009-40-125, Internal Controls for the Volunteer
Income Tax Assistance Grant Program Are in Place but Could Be Strengthened (Aug. 2009).
10
   Taxpayers can check the box stating they are blind. This generally allows taxpayers who are blind an additional
standard deduction.
                                                                                                           Page 12
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



population in each territory. This may make measuring the success of reaching these
underserved populations more difficult.
SPEC function officials stated that each territory would make decisions on how to allocate
resources to increase service to any specific, underserved groups. However, SPEC function
Headquarters will continue to maintain the tools, resources, and data unique to these market
segments and will make this information available. It plans to continue to update the resources
with best practices using territory input.
Nevertheless, the SPEC function should begin to use historical data to assess the IRS’s progress
in meeting the VITA Grant Program objective of extending coverage to the underserved. This
would allow the Grant Program Office to work with the SPEC function Territory managers to
recruit partners in underserved locations. Recruiting for the VITA Grant Program has generally
been limited to current Volunteer Program participants, and in reality has been limited to posting
announcements and waiting to see who applies.
The strengths of the Volunteer Program lie with the partner organizations and their volunteers.
The VITA Grant Program has become a significant
component of the IRS’s Volunteer Program. Agencies
                                                               The strengths of the Volunteer
should establish general goals and objectives for the            Program lie with the partner
major functions and operations of the agency. The           organizations and their volunteers.
Volunteer Program plays an increasingly important               The VITA Grant Program has
role in achieving the IRS’s goal of improving taxpayer      become    a significant component of
service and facilitating participation in the tax system.       the IRS’s  Volunteer Program.
The SPEC function needs to establish the VITA Grant
Program’s overall geographic and target population measures and goals. It also needs to
establish measures for the individual grantees to determine if they meet their plans and goals.




                                                                                          Page 13
              Additional Steps Are Needed to Ensure the Volunteer Income Tax
              Assistance Grant Program Reaches More Underserved Taxpayers



Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, after analyzing
current data and establishing a baseline, should develop measures and goals to ensure the VITA
Grant Program is meeting the legislative intent of extending services to underserved populations
and hardest-to-reach areas, both urban and nonurban. These data would assist the IRS in
targeting its recruitment efforts to new partners serving the underserved populations and by
establishing measures for the individual grantees to determine if they are meeting the Program’s
objectives and goals.
       Management’s Response: IRS management agreed to continue analysis of available
       data to ensure the VITA Grant Program is meeting legislative intent. The IRS will
       continue calculating a coverage rate annually for each segment representing underserved
       populations for the entire Volunteer Program, of which the VITA Grant Program is part.
       The coverage rate represents the percentage of the population receiving volunteer return
       preparation services. The IRS will continue to use key business indicators to guide VITA
       Grant recruitment efforts and monitor program performance. In addition, beginning with
       the 2012 grant, a minimum return goal was incorporated into each organization’s grant
       agreement.
       Office of Audit Comment: The IRS did not address the establishment of a baseline
       for the VITA Grant Program in its response. The IRS previously told us that it would
       establish a baseline for the VITA Grant Program’s performance goals during the 2009
       Filing Season. However, it did not. Without a baseline, it will continue to be difficult for
       the IRS to determine where to market the VITA Grant Program and what underserved
       geographic areas need more coverage.




                                                                                           Page 14
                 Additional Steps Are Needed to Ensure the Volunteer Income Tax
                 Assistance Grant Program Reaches More Underserved Taxpayers



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the VITA Grant Program is achieving its
purpose of extending services to underserved populations in hard-to-reach areas, both urban and
nonurban. To accomplish our objective, we:
I.      Determined whether the IRS has established appropriate performance measures and goals
        for the VITA Grant Program by interviewing VITA Grant Program Office officials and
        reviewing documents, including policies and procedures, related to the Program.
II.     Determined how the VITA Grant Program Office has measured its progress toward
        reaching its goals and achieving the intent and purpose of the Program.
        A. Identified how the VITA Grant Program Office measures geographic coverage and
           how it determines if it is meeting the goal to expand coverage to the underserved
           populations.
        B. Obtained IRS reports on the number of tax returns prepared by the VITA Grant
           Program from the 2009 to 2011 Filing Seasons and determined how the IRS monitors,
           tracks, and determines if the grantees have met their goals—the number of tax returns
           prepared and the underserved populations they attempted to reach.
        C. Selected all 51 grantees that participated in the VITA Grant Program for Fiscal
           Years 2009, 2010, and 2011. We reviewed a judgmental sample1 of 11 grantees to
           determine if the grantees were appropriately selected for the Program.
        D. Discussed and assessed the IRS’s future plans to improve the Program.
III.    Assessed the IRS’s decision to allow some organizations to apply for annual funding for
        up to three years.
IV.     Identified the demographics of taxpayers whose tax returns were prepared by the VITA
        Grant Program grantees to validate the VITA Grant Program Office’s data and
        determined whether the VITA Grant Program is achieving its intended results.
        A. Obtained a copy of the Preparer’s Return Transaction File2 and identified tax returns
           prepared by the SPEC function Volunteer Program for Calendar Years 2009, 2010,
           and 2011.

1
 A judgmental sample is nonstatistical sample, the results of which cannot be used to project to the population.
2
 The Return Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040, U.S.
Individual Income Tax, series and related forms for the current processing year and two prior years.
                                                                                                           Page 15
               Additional Steps Are Needed to Ensure the Volunteer Income Tax
               Assistance Grant Program Reaches More Underserved Taxpayers



       B. Identified the sites and tax returns prepared by the VITA Grant Program grantees for
          Calendar Years 2009, 2010, and 2011.
       C. Identified the demographics of taxpayers whose tax returns were prepared by the
          VITA Grant Program grantees for Calendar Years 2009, 2010, and 2011 by, for
          example, income level (wages and gross income), age, city, State, zip code, filing
          status, etc.
       D. Obtained outreach reports since the inception of the Program to determine if the
          outreach has focused on the areas with little or no VITA Grant Program coverage.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SPEC function’s policies, procedures,
and practices for soliciting, reviewing, and approving applications for the VITA Grant Program
as well as the SPEC’s procedures for monitoring the performance of the VITA Grant Program
grantees. We evaluated controls by interviewing management and reviewing policies and
procedures.




                                                                                          Page 16
              Additional Steps Are Needed to Ensure the Volunteer Income Tax
              Assistance Grant Program Reaches More Underserved Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jean Bell, Lead Auditor
Ken Carlson, Senior Auditor
Jack Forbus, Senior Auditor
Patricia Jackson, Senior Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor
Kim McMenamin, Program Analyst
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 17
              Additional Steps Are Needed to Ensure the Volunteer Income Tax
              Assistance Grant Program Reaches More Underserved Taxpayers



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 18
   Additional Steps Are Needed to Ensure the Volunteer Income Tax
   Assistance Grant Program Reaches More Underserved Taxpayers



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 19
Additional Steps Are Needed to Ensure the Volunteer Income Tax
Assistance Grant Program Reaches More Underserved Taxpayers




                                                        Page 20
Additional Steps Are Needed to Ensure the Volunteer Income Tax
Assistance Grant Program Reaches More Underserved Taxpayers




                                                        Page 21
Additional Steps Are Needed to Ensure the Volunteer Income Tax
Assistance Grant Program Reaches More Underserved Taxpayers




                                                        Page 22
